No. ______
CERTIFICATE OF COMPLIANCE
PATRICIA NELSON, Next friend of N.K., a minor, Petitioner
v.
ESTEBAN RIVERA, Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 4,698 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 26, 2020.
/s/ Christopher J. Trainor
Attorney for Petititoner

